<html>
<title> - U.N. REFERENDUM FOR WESTERN SAHARA: 9 YEARS AND COUNTING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
        U.N. REFERENDUM FOR WESTERN SAHARA: 9 YEARS AND COUNTING

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2000

                               __________

                           Serial No. 106-147

                               __________

    Printed for the use of the Committee on International Relations







        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations




                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
67-165 CC                   WASHINGTON : 2000







                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           [VACANCY]
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana              [VACANCY]
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
TOM CAMPBELL, California             ALCEE L. HASTINGS, Florida
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
THOMAS G. TANCREDO, Colorado         BARBARA LEE, California
GEORGE RADANOVICH, California
                Tom Sheehy, Subcommittee Staff Director
        Charisse Glassman, Democratic Professional Staff Member
               Malik M. Chaka, Professional Staff Member
                  Courtney Alexander, Staff Associate





                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Allen Keiswetter, Deputy Assistant Secretary for 
  Near Eastern Affairs, U.S. Department of State.................     2

                                APPENDIX

Member's prepared statements:

The Honorable Edward R. Royce, a Representative in Congress from 
  California and Chairman, Subcommittee on Africa................    12
The Honorable Joseph R. Pitts, a Representative in Congress from 
  Pennsylvania...................................................    13
The Honorable George Radanovich, a Representative in Congress 
  from California................................................    15

Witness' prepared statement:

Allen Keiswetter.................................................    16

Additional Submissions:

Response by Mr. Keiswetter to additional question posed by Rep. 
  Pitts..........................................................    21


        U.N. REFERENDUM FOR WESTERN SAHARA: 9 YEARS AND COUNTING

                              ----------                              


                     Wednesday, September 13, 2000

                  House of Representatives,
                             Subcommittee on Africa
                       Committee on International Relations
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:10 p.m. in 
room 2255, Rayburn House Office Building, Hon. Edward R. Royce 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Royce, Pitts 
    Mr. Royce. This hearing of the Subcommittee on Africa will 
come to order. Today, the Subcommittee will examine the 
troubled peacekeeping operation in Western Sahara. This 
Subcommittee has closely watched MINURSO.
    Over the years, we have held several hearings focusing on 
it. Before that, Congress passed a resolution led by this 
Subcommittee expressing support for former Secretary of State 
James Baker's efforts as U.N. Special Envoy to move along the 
stalemated process. A vote to determine whether resource-rich 
Western Sahara is to be incorporated into Morocco or become an 
independent state was originally set for January 1992. That was 
more than 8 years ago.
    Now, 8 years and some $440 million later, MINURSO 
unfortunately is far from its goal. The U.N. itself is at a 
point of reaching this conclusion. This May, in this report, 
Secretary General Kofi Annan noted the prospects for holding a 
referendum were as distant as ever. In his latest report, the 
Secretary General observed that the problems between the 
parties had deepened.
    Special Envoy Baker has said recently that the referendum, 
in his words, ``is in big trouble.'' His July meeting with the 
parties in Geneva came to an abrupt end, with the Secretary 
General reporting that these talks had seen the parties move, 
in his words, ``move things backward.'' It is discouraging that 
the Secretary General has cited problems wholly distinct from 
the often-noted registration dispute, including the 
implementation of a code of conduct for the planned referendum 
campaign. Annan has reported that the process has been impeded 
by ``fundamental differences between the parties over the 
interpretation of purposes.''
    It is clear to me that the U.S. and other countries have 
been unwilling to pressure Morocco enough to achieve the 
implementation of a fair referendum. This suggests it is 
nearing time to shut down MINURSO. It costs some $45 million to 
run, and the credibility of U.N. peacekeeping is once again at 
stake. If peacekeeping is going to be strengthened and win 
backing here, then we cannot afford to support interminable 
missions with unachievable mandates.
    The Administration testified to this Subcommittee that in 
the face of no MINURSO progress, U.N. resources should not be 
used for what then becomes a stop-gap measure. It expressed in 
no uncertain terms that time was running out. That was 2 years 
ago. If MINURSO is terminated under these circumstances, the 
Administration has a responsibility to provide an honest 
accounting of which party bears responsibility for its failure. 
That is a point I made 2 years ago, and it is a point that 
still holds.
    Sadly, many Sahrawis have put their faith in a process that 
appears to be a mirage. I wish it were different, and I should 
note that Jim Baker has another meeting scheduled for later 
this month at which he will try to pull a diplomatic rabbit out 
of a hat, but short of that, I do not see why the U.S. should 
continue approving U.N. resolutions extending MINURSO.
    We will now hear from our witness, Allen L. Keiswetter, who 
was appointed Deputy Assistant Secretary of State from the 
Bureau of Near Eastern Affairs in July. He was previously the 
director of Arabian Peninsula affairs. He holds the rank of 
minister counselor. Ambassador Keiswetter joined the Foreign 
Service in 1967. He is a graduate of Dartmouth College and 
holds advanced degrees from Johns Hopkins School of Advanced 
International Studies and Harvard University. Ambassador, thank 
you for joining us today, and if you would begin with your 
testimony.
    [The prepared statement of Mr. Royce appears in the 
appendix.]

STATEMENT OF ALLEN L. KEISWETTER, DEPUTY ASSISTANT SECRETARY OF 
    STATE FOR NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr.Keiswetter. Thank you very much, Mr. Chairman. I am 
greatly honored to have this opportunity to appear before you 
regarding the Western Sahara. As you have noted, this is an 
issue that expanded the past quarter-century and has 
constituted instability and a financial burden on the countries 
and peoples involved. I would like to address first the U.S. 
interests and our role in the Western Sahara; second, recent 
developments which you have already outlined; and, third, the 
prospects and U.S. policy.
    A peaceful settlement would enhance the stability of the 
Maghreb region, as well as the stability of the Mediterranean 
Basin more generally. It offers the prospect of strengthening 
political, economic, and commercial cooperation for the 
betterment of all concerned. Unresolved, this dispute 
constrains the opportunities of the region and leaves several 
hundred thousand Sahrawis with a bleak and uncertain future. If 
the situation deteriorates, a return to violence would bring 
new suffering and hardship, threaten potential political and 
economic liberalizing trends in Algeria and Morocco, and pose 
serious risks for the stability of Maghreb, with serious 
implications for Southern Europe.
    With these interests at stake, we continue to strongly 
support the mediation efforts of the United Nations undertaken 
since the late-1980's. We remain committed to an early and 
durable, peaceful solution to this long-running conflict. This 
can happen only with the full cooperation of all of the 
parties. These principles undergird our support for the mission 
of the United Nations Secretary General's personal envoy, 
former Secretary of State James Baker. We believe the U.N. 
remains in the best position to bring about a solution to this 
case.
    It was U.N. Secretary General Perez de Cuellar who began 
implementation of the ``cease-fire-and-referendum'' framework 
solution agreed to by the parties. This plan laid out the 
mechanisms for resolving whether the territory would become 
independent or a province of Morocco based on a vote of the 
native population. In essence, it required the identification 
of eligible voters, the return of refugees to the territory, 
and a vote under the auspices of the United Nations.
    Despite this framework agreement nearly a decade ago, there 
has been only slow progress toward implementation. Serious 
political differences between the parties continued to block 
prospects for an early vote on the future of the territory. By 
December 1999, MINURSO had succeeded in completing the 
contentious Phase I of the referendum process, the 
identification of potential voters. Indeed, an impressive total 
of more than 200,000 prospective voters were processed in the 
course of this exercise, and about 90,000 were found eligible. 
However, the referendum remains pending because of disputes 
over the voting lists. The parties continue to disagree over 
the grounds for appeals by those persons not included in the 
list of eligible voters.
    As you have noted, U.N. Secretary General Kofi Annan has 
said that dispute over the appeals ``allows the impossibility 
of holding the referendum before the Year 2002 or even 
beyond.'' The number of appeals now total more than 130,000. 
The question is how to respect the rights of the voting 
applicants while avoiding a retreat to use a long 
identification process.
    Another obstacle in the resolution of this conflict has 
been the repatriation of refugees. The parties have not come to 
an agreement regarding the draft refugee-repatriation protocol 
presented by the U.N. High Commission on Refugees. So far, the 
parties have also not agreed to implement proposed cross-
border, confidence-building measures that would improve the lot 
of the 120,000 or so refugees that had been preregistered.
    Despite these obstacles, the U.N. continues to facilitate 
talks. In February of this year, U.N. Secretary General Annan 
asked his personal envoy, James Baker, to consult with the 
parties to explore ways to achieve an early, peaceful, and 
durable settlement. He recommended to the U.N. Security Council 
that it extend MINURSO's mandate until May 31st of this year to 
provide time to meet with the parties. In an effort to either 
reconcile differences over the implementation of the settlement 
plan or find alternative approaches to help solve the dispute 
over the Western Sahara, Mr. Baker visited Algeria, Morocco, 
the Western Sahara, and Tindouf, Algeria, where he met with the 
POLISARIO leadership.
    In May, Secretary General Annan invited Morocco and 
POLISARIO, as well as observers from Algeria and Mauritania, to 
talks in London presided by Mr. Baker. It was the parties' 
first direct contact since 1997. The talks permitted a frank 
exchange of views that were inconclusive.
    In late May, the U.N. Security Council voted to extend the 
MINURSO mandate until the 31st of July in an effort to provide 
additional time to address the remaining issues. A second round 
of talks was convened on June 28th in London. The parties were 
asked to bring specific solutions to resolve all outstanding 
settlement plan issues or be prepared to consider and discuss 
other ways to achieve ``an early, durable, and agreed 
resolution of dispute.'' Because of the lack of progress, Baker 
called on the parties to meet again, emphasizing the need for 
flexibility on both sides, either toward moving forward with 
the U.N. settlement process or perhaps through a solution that 
rested in between full independence and full integration of the 
Western Sahara into Morocco.
    In late-June, the U.N. Security Council voted unanimously 
to extend MINURSO's mandate to October 31st, with the 
expectation that the parties will meet again in direct talks 
under Baker's auspices to resolve the multiple problems related 
to implementation of the settlement plan and to try to agree 
upon a mutually acceptable, political solution to the dispute. 
Those talks are slated for later this month, perhaps in Berlin.
    When the parties meet again, we hope they will make clear 
their commitment to a process by which they will achieve a 
peaceful settlement. However, public statements by the parties 
to the dispute in recent weeks have tended to narrow rather 
than broaden the opportunity for progress. Thus, in preparation 
for the forthcoming meeting, we have encouraged the parties at 
the highest levels to approach the next round with flexibility 
and a cooperative attitude.
    Mr. Chairman, we are working hard to help bring about an 
early, durable, and peaceful resolution to the conflict, one 
which is mutually agreed, takes into account the political 
rights and well-being of all parties involved, and promotes the 
stability of the region. The effort of former Secretary Baker 
has given us a chance to do this.
    There are two possibilities on the table. First, the 
holding of a referendum, provided the parties can agree to its 
technicalities, and after nearly a decade, as you have said, 
that possibility still seems years away. Second, finding a 
mutually acceptable, political solution. Mr. Baker is still in 
the process of exploring alternatives.
    The United States opposes any solution being imposed on the 
parties. That, in our view, will not work. The parties 
themselves have to agree on the way ahead. We hope the steps 
will be taken toward that end at the next meeting. The U.N. 
effort has the support of the U.S. and others in the 
international community, as experienced by the unanimously 
endorsed renewal of the mandate of MINURSO by the UNSC. We 
continue to urge the parties to take advantage of this 
important opportunity as their best chance to resolve this 
dispute.
    In sum, Mr. Chairman, we have encouraged the parties at 
high levels to approach the Baker-led talks with flexibility 
and a cooperative attitude. We have sought to urge improvement 
of relations between Algeria and Morocco, a key element to any 
durable progress on the Western Sahara. We have continued our 
efforts to deepen our ties to each of the parties through 
programs such as the U.S.-North Africa Economic Partnership. 
Finally, we have continued to support MINURSO, which has served 
as a safety net for regional stability.
    What I have described are elements of a U.S. policy of 
preventative diplomacy aimed at helping to resolve the long-
standing conflict and thereby bringing greater peace and 
stability to the Maghreb region and all of its people. I will 
be glad to take your questions.
    [The prepared statement of Mr. Keiswetter appears in the 
appendix.]
    Mr. Royce. Very good. Let me just say that we have 
witnessed Moroccan authorities waging a media crackdown.
    The government has sacked three managers of the state-run 
TV channel and has banned editions of two newspapers for 
recording interviews with the leader of the POLISARIO front. We 
have seen the Moroccan delegation walk out, refusing to discuss 
the appeals issues. We have seen 130,000 appeals being made, 
mostly from the Moroccan side. After 198,000 people were 
interviewed for voting, Morocco is refusing to allow the 
referendum to go ahead until the appeals have been individually 
examined and, based upon the process that they are calling for, 
this will take at least 2 years.
    So, it has been made clear to this Subcommittee that it has 
been Morocco that has been the greatest impediment to the 
registration process to begin with. We heard this from the 
witnesses at our last hearing, the recent press accounts, from 
correspondence, from close observers in the operation, 
including a number of U.S. military officers who served in 
MINURSO. Morocco is now flooding MINURSO with voter-
registration appeals, as I say, in what appears to be a 
stalling tactic.
    Do you agree, Ambassador, that Morocco bears the greatest 
responsibility for MINURSO's current deadlock?
    Mr. Keiswetter. Mr. Chairman, our policy is not to take 
sides with this dispute. In fact, our policy is to support the 
efforts of the U.N. Secretary General and of Mr. Baker. In both 
of these cases they have said that the lack of progress, the 
responsibility for the lack of progress, lies on both sides, 
not just on one side, and I think this is clear in the various 
reports that they have issued over the past couple of years. So 
we have, in fact, been generous, we have been supportive of the 
U.N.'s efforts, and we have urged all parties to the dispute at 
high levels, in fact, to be flexible, to use imagination, and 
to cooperate on either of the approaches that former Secretary 
Baker has outlined. So that is my answer to you.
    Mr. Royce. I think we have some responsibility to the 
parties in the dispute who have invested a certain amount of 
faith in the process and a certain amount of faith that we are 
going to make an honest effort to not string them along but 
instead to see this through to a conclusion. I had a couple of 
other questions I wanted to ask you.
    One is the Administration's report to Congress on MINURSO. 
It states that according to the UNHCR, the vast majority of 
refugees say they fear for their safety should they return to 
Moroccan-controlled the Western Sahara. Are those concerns 
legitimate?
    Mr. Keiswetter. I think they are legitimate in the sense 
that they feel them and that they accurately reflect the views 
that these people express, in fact, to U.N. agencies. Since we 
have not unfortunately been able to even arrange some of the 
preliminary steps that will lead toward this, such as family 
visits back and forth across the berm, I think we have not yet 
had a chance, in fact, to test whether there is justification. 
So the answer is these are the fears accurately reported. 
Whether they are legitimate or not, I do not know.
    Mr. Royce. As I mentioned in my opening statement, it was 2 
years ago when the Administration said that MINURSO's time is 
running out. Today, you have testified that after nearly a 
decade the possibility of holding the referendum still seems 
years away, at best, in your words. Is the Administration 
planning to end its support of MINURSO if Special Envoy Baker 
fails to make progress or will it continue?
    Mr. Keiswetter. This is an excellent question. As you may 
know, MINURSO's mandate is renewed at very short intervals. It 
renewed most recently at a 3-month interval; before that, for a 
2-month interval.
    Mr. Royce. It expires in October.
    Mr. Keiswetter. Yes. So one of the reasons, in fact, for 
this is for accountability in the sense that you have 
suggested, but I would like to emphasize what MINURSO does in a 
broader sense.
    I have described it in my testimony as a ``safety net.'' It 
does a lot of things. First of all, it helps monitor and keep 
the cease-fire. This has been very important at various times, 
particularly recently, when Algeria went through a period of 
crisis. It also is responsible, of course, for such efforts as 
coordinating demining. Then, in addition to that, there are the 
duties that it has and responsibilities that it has for the 
process of identification and the appeals, and it is proper for 
this process to go forward.
    Mr. Royce. True, true, but the parties did not agree to a 
Cyprus-like, peacekeeping agreement. They agreed to have an 
election, and the United States signed on to the agreement 
under which there was going to be an election. So now we are 
talking about the upside of the fact that this has evolved into 
a Cyprus-style peacekeeping agreement, and I am trying to ask, 
do we actually have a commitment to move forward and push 
forward to have an honest election?
    Mr. Keiswetter. The answer is Mr. Baker is doing his best 
to try to resolve this problem, and he has asked the parties, 
in fact, to consider two possibilities that I have outlined to 
you: either coming to grips with the problems with holding a 
referendum or, on the other hand, considering other mutually 
acceptable, critical solutions.
    Mr. Royce. I am going to turn now to Congressman Pitts, but 
before I do, I would ask when this comes to an end. Is there 
ever any intention of having accountability of saying what 
actually happened and what parties were holding up the process? 
Will there be, after the fact, some accountability? I would 
just like to know that for the record.
    Mr. Keiswetter. Mr. Baker has said that when the end comes, 
that he would, in fact, name names and give accountability.
    Mr. Royce. Right, and Mr. Baker is working for the United 
Nations at this time and doing a yeoman's job on this, and I 
have met with him. I appreciate all he is trying to do, but 
ultimately it becomes the responsibility of the Administration 
and of the Congress, and at some point I think we have to come 
to grips with the reality of what happened and why enough 
pressure was not brought to bear on bringing about an agreement 
for an election. But with that said, I am going to turn to Mr. 
Pitts of Pennsylvania, and I am going to go make this vote. 
Thank you, Mr. Keiswetter.
    Mr. Keiswetter. Thank you very much, Mr. Chairman.
    Mr. Pitts. (A Representative in Congress from Pennsylvania, 
and Member of the Budget and Armed Services Committees) 
[Presiding.] Thank you, Mr. Chairman. Thank you for holding 
this timely hearing on the Western Sahara and the final 
implementation of the settlement plan. I will submit my entire 
statement for the record, but I would like to make a couple of 
comments.
    I think it is vital at this time that all parties to the 
settlement plan signed by the United States' Special Envoy and 
former Secretary of State James Baker and the implementation. 
Despite the International Court of Justice ruling in 1975 that 
Morocco had no claim to the territory, Morocco continued to 
assert the Western Sahara as part of its country.
    Tribal links do not establish sovereignty over a nation. 
That idea was used by Saddam Hussein to justify his invasion 
and attempted takeover of Kuwait. I visited some of the refugee 
camps in the Sahara Desert to talk to some of the people and 
the officials, and I am a little concerned about what I hear 
now regarding abandoning and disregarding the right of the 
people to vote for self-determination.
    I would like to ask you if it is accurate that the U.S. 
Government, since 1975, on several occasions has made 
statements in support of the right of the people of the Western 
Sahara to self-determination, if this is accurate, please 
elaborate on how it is possible for the current Administration, 
according to a number of reports, to search for a resolution of 
the conflict which will completely deny the right to self-
determination, Mr. Keiswetter.
    [Statement of Mr. Pitts appears in the appendix.]
    Mr. Keiswetter. Mr. Congressman, let me begin by saying 
that the first part of your question, that the U.S., of course, 
had endorsed repeatedly the U.N. settlement plan, which 
includes identification of the voters, the appeals process, and 
then the actual referendum. That offer is still strongly 
supported by us and is still on the table. But as the chairman 
noted a few minutes ago, the first election referendum was to 
be held in January 1992. It is now more than 8 years later, and 
it is still pending.
    This is, in fact, one of the very strong reasons that has 
motivated former Secretary Baker to ask the question of is 
there some other way, and he has suggested that this, in fact, 
could be some option that would be not full integration into 
Morocco and not full independence. He also said that it could 
be the alternative of, in fact, somehow reaching a political 
arrangement that will allow the referendum to go ahead, and he 
is now in the process of exploring these options.
    So when the parties meet again, now later this month, both 
of those topics are under discussion, and we would hope that 
there could be progress made toward making a decision by the 
parties as to how they want to go ahead.
    Mr. Pitts. The other parts of the negotiated settlement 
plan; does the State Department believe that the parties are 
still behold to the other terms of the agreement?
    Mr. Keiswetter. In terms of repatriation and so on and so 
forth, I think, as I have outlined in my testimony, there has 
not been a great deal of progress on any of the fronts. For 
example, on refugees, some 120,000 have been preregistered, but 
on the other hand, we still do not have agreement on 
confidence-building measures that will allow families to visit 
across the berm.
    Mr. Pitts. The group, MINURSO, I think that is an acronym 
that stands for United Nations Mission for Referendum?
    Mr. Keiswetter. It is a French acronym.
    Mr. Pitts. Does the State Department believe MINURSO should 
continue to exist?
    Mr. Keiswetter. We have repeatedly endorsed and voted for 
the continuation of MINURSO, and we have kept it under a very 
short leash of 1-month periods, 2 months, and recently 3 
months, so that its performance can be evaluated. But that 
being said, it has several functions that we think are 
important to preserving stability.
    First is sort of a safety net that it has provided in 
monitoring the cease-fire and preserving the cease-fire during 
difficult times, for example, when Algeria went through a 
period of crisis here recently. It also provides some breathing 
room for the new leadership in both countries to modernize. It 
undertakes such programs as coordination of demining. All of 
this is in addition to the principal jobs that I think you may 
be more familiar with that concern the identification of voters 
and the appeals proposal. Frankly, if we go forward with the 
referendum, it is vital to sorting out the details of the 
referendum and to making it work.
    Mr. Pitts. I understand that the POLISARIO did agree to the 
confidence-building measures, that it was Morocco that has not 
agreed to that. Is that your understanding?
    Mr. Keiswetter. If you have in mind here in particular the 
family visits, they were discussed at the last meeting of the 
technical committee in Geneva in July, and I think it is fair 
to say that both sides agreed in principle to the confidence-
building measure of family visits. But since then, they have 
been unable to agree on the language describing how this would 
work. So I think the answer is both agreed in principle, but 
there are now disagreements about the specific language that 
would make it work.
    Mr. Pitts. Now, then, on the process of determining who are 
legitimate voters for the referendum, what is the status of 
that, and who is agreeing, and who is disagreeing, and why are 
they agreeing?
    Mr. Keiswetter. The United Nations, MINURSO, has examined 
more than 200,000, I believe the latest statistic that I saw 
was something 244,000 individual cases. It has found about 
90,000 to be eligible voters. In addition to this now, there 
have been more than 130,000 that have contested those 
decisions. Almost all of these, not all, but almost all, are, 
in fact, people who were excluded from the rolls and think they 
should be included in the rolls.
    Now, part of the problem here is the circumstances in which 
this occurs. The voting rolls are based on the Spanish census 
of 1974, and so it is dated, and there have to be certain 
adjustments to it to make it fair. It does not include, for 
example, Sahrawis that were not residents in either area at the 
time. Now, I can only quote the U.N. Secretary General on this 
issue, in which he said that both of the parties see, in fact, 
the voter base as being important to the outcome and in sort of 
getting out the vote. So there are, I think, problems on both 
sides here.
    Mr. Pitts. Have there not been about 130,000 appeals?
    Mr. Keiswetter. Yes. That is true. That is the figure, of 
130,000. That is the number of appeals.
    Mr. Pitts. How many are from Morocco? What percentage?
    Mr. Keiswetter. A large percentage of them are, almost all, 
in fact, because they are people who were Sahrawis but maybe 
residents in Morocco and other extenuating circumstances. One 
of the biggest problems is the two-chiefs problem. To, in fact, 
be enrolled and be declared eligible, there have to be two 
tribal chiefs who will vouch for the voter. In many cases there 
is only one tribal chief. So these are the problems that 
MINURSO faces.
    Mr. Pitts. So of the 130,000, what, better than 98 percent 
are from Morocco, and maybe 1 percent or less are from the 
POLISARIO fields?
    Mr. Keiswetter. I do not think it is fair to say that they 
are exactly from Morocco. I do have some statistics here. This 
shows 75 percent, Mr. Congressman.
    Mr. Pitts. Seventy-five percent?
    Mr. Keiswetter. I will be glad to provide this to you. It 
is from the Secretary General's report, which gives a full 
breakdown by location, and whether it is because of an 
exclusion or inclusion. I will be glad to provide that.
    [The submitted break down appears in the appendix.]
    Mr. Pitts. Thank you. On a humanitarian note, when I was 
over there, I visited victims of land mines. There are still 
millions of land mines. There was a team, I believe, from 
Norway ready to remove land mines, and they were having a 
problem getting permission from the government of Morocco to go 
in and remove those land mines. Has the State Department taken 
a position or advocated anything about removal of land mines?
    Mr. Keiswetter. We would encourage the effort. I do not 
know anything specific about the case that you mentioned.
    Mr. Pitts. But has the State Department urged the removal 
of land mines?
    Mr. Keiswetter. Yes. We have encouraged all of these 
confidence-building and humanitarian measures. We think this is 
one of the major justifications for MINURSO.
    Mr. Pitts. The point is, there are innocent victims, 
children for instance, I saw a little girl who had her leg 
blown off from a land mine, that are being harmed just from the 
existence of these mines. When you have got an international 
organization willing to go in and remove wherever the 
impediment is, I think we ought to be advocating to try to 
remove those impediments and start removing some of the land 
mines.
    What about the return of POW's from both sides? Are you 
familiar with the situation, and what has the State Department 
done to try to get an exchange?
    Mr. Keiswetter. I am generally familiar with the situation. 
As I understand it, at the moment there are only Moroccan POW's 
held by the POLISARIO, and now many of them have been held for 
more than 25 years. We would hope that progress could be made 
on this issue, as well as part of a confidence-building 
exercise between the parties.
    Mr. Pitts. Now, are they being held by the Sahrawis, or are 
they not being permitted to return to Morocco by the Moroccan 
government? Do you know?
    Mr. Keiswetter. Mr. Congressman, I would like to get back 
to you on the details of that, because while I have 
impressions, I think it is important to be accurate.
    Mr. Pitts. I visited with about 70 POW's who were Moroccan, 
some who have been there for 20 years, and was told that they 
were free to return, that they had not received permission to 
return. Now, maybe that has occurred since then, but I think if 
we can start exchanging, get the POW's back, also, identify 
missing persons, there are lists of many missing persons, 
exchange lists, removing land mines, do the humanitarian 
things, many of these kinds of efforts toward a peaceful 
settlement would be very helpful.
    The State Department has an opportunity, I think, and a 
responsibility to take a position and try to facilitate these 
matters.
    Thank you. I do not have any more questions. I do not know 
if the chair is coming back. He is not? So thank you very much, 
and we will adjourn the hearing at this time.
    Mr. Keiswetter. It is a pleasure to talk with you.
    [Whereupon, at 2:47 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           september 13, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7165.002
    
    [GRAPHIC] [TIFF OMITTED] T7165.001
    
    [GRAPHIC] [TIFF OMITTED] T7165.003
    
    [GRAPHIC] [TIFF OMITTED] T7165.004
    
    [GRAPHIC] [TIFF OMITTED] T7165.005
    
    [GRAPHIC] [TIFF OMITTED] T7165.006
    
    [GRAPHIC] [TIFF OMITTED] T7165.007
    
    [GRAPHIC] [TIFF OMITTED] T7165.008
    
    [GRAPHIC] [TIFF OMITTED] T7165.009
    
    [GRAPHIC] [TIFF OMITTED] T7165.010
    

</pre></body></html>
